No. 20-542
IN THE

Supreme Court of the United States
———
REPUBLICAN PARTY OF PENNSYLVANIA,

Petitioner,
v.

KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY
AS SECRETARY OF STATE OF PENNSYLVANIA, ET AL.,

Respondents.
NOTICE OF WITHDRAWAL OF MOTION TO RECUSE

To:

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, DC 20543
Given the Supreme Court’s safety protocols, I understand that the Motion to
Recuse which was electronically submitted on October 27, 2020, has not yet
been officially filed. Given the Supreme Court’s refusal to expedite
consideration of the petition for a writ of certiorari, thus allowing the Order
of the Supreme Court of Pennsylvania to stand presently, we therefore
request that the Motion be considered withdrawn.
Respectfully submitted,

JENNIFER MENICHINI
JOYCE, CARMODY & MORAN P.C.
9 N Main St., Ste 4
Pittston, PA 18640
Phone: 570-602-3560
jm@joycecarmody.com

s/JOSEPH M. COSGROVE

Counsel of Record

SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704
Phone: 570-287-2400
jcosgrove@getyourselfagoodlawyer.com

